TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      The Internal Revenue Service Needs a
                          Coordinated National Strategy
                         to Better Address an Estimated
                       $30 Billion Tax Gap Due to Non-filers



                                         November 2005

                              Reference Number: 2006-30-006




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY

                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                November 22, 2005


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – The Internal Revenue Service Needs a
                                Coordinated National Strategy to Better Address an Estimated
                                $30 Billion Tax Gap Due to Non-filers (Audit # 200530011)

 This report presents the results of our review of the Internal Revenue Service’s (IRS)
 implementation of initiatives under the Non-filer Strategy for current and past fiscal years.

 Synopsis
 According to a study released by the IRS in March 2005,1 individual, estate, and gift tax
 non-filers accounted for about 10 percent of the total tax gap2 for Tax Year (TY) 2001. The IRS
 study, together with previous IRS studies, indicates the tax gap for individual non-filers tripled
 from $9.8 billion in TY 1985 to over $30 billion3 in TY 2001.
 In the past, the IRS had several strategies for reducing the tax gap attributable to individual
 non-filers. The most recent National Non-filer Strategy, which was developed for Fiscal
 Years (FY) 2001 through 2003, was made obsolete in July 2002 when the IRS was reorganized.
 Since then, each IRS business division has been responsible for tracking and monitoring



 1
   The IRS National Headquarters Office of Research released results of a study in March 2005 providing tax gap
 estimates for Tax Year (TY) 2001. The non-filer population data were from TY 1988.
 2
   The non-filer tax gap is the dollar amount of taxes not paid timely on delinquent and non-filed returns.
 3
   The estimated tax gap of $30 billion in TY 2001 was comprised of $28 billion for individual income tax non-filing
 and $2 billion associated with estate and gift tax. The estimate is developed from other tax gap data sources and is
 not derived from direct data sources. So, the growth in the dollar amounts in the estimate track the increases in other
 tax gap estimates.
                      The Internal Revenue Service Needs a Coordinated National
                                Strategy to Better Address an Estimated
                                  $30 Billion Tax Gap Due to Non-filers


completion of its own action items. Consequently, there has been no formal system in place for
coordinating and tracking all actions across all IRS divisions.
As increasing voluntary compliance remains a Service-wide effort, the individual business
divisions within the IRS have taken steps to improve efficiency in working non-filer cases. The
actions taken by business divisions include:
    •    Consolidation of the Automated Substitute for Return Program4 into one campus.5
    •    Computer programming changes to enhance automated processing of returns created by
         the IRS for non-filing businesses, as authorized under Section 6020(b) of the Internal
         Revenue Code.6
    •    Refinement of the processes for selection and modeling of non-filer cases each year
         through risk-based compliance approaches. The intention is to identify and select the
         most productive non-filer work and to apply appropriate compliance treatments to
         high-priority cases.
    •    Increased outreach efforts by the Small Business/Self-Employed (SB/SE) Division
         through its Taxpayer Education and Communication function.
    •    Increase in the number of cases recommended for prosecution by the Criminal
         Investigation Division from 269 in FY 2001 to 317 in FY 2004 (an increase of
         17.8 percent).
However, these are not coordinated activities that have been planned and controlled within the
framework of a comprehensive strategy. Since FY 2001, each business division has
independently directed its own non-filer activities. Currently, the IRS does not have a
comprehensive, national non-filer strategy or an executive who is charged with overseeing each
business division’s non-filer efforts. The IRS needs better coordination among its business
divisions to ensure resources are being effectively used to bring non-filers into the tax system
and ensure future compliance. The Executive Steering Committee that was previously
established to monitor and coordinate activities among the business divisions last met in
August 2002; coordinated meetings involving all business divisions were not conducted between
September 2004 and April 2005.


4
  The Automated Substitute for Return Program focuses on high-income taxpayers who have not filed individual
income tax returns but appear to owe significant income tax liabilities based on available Information Reporting
Program information.
5
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
6
  Internal Revenue Code Section 6020(b) (2005) provides the IRS with the authority to prepare and process certain
returns for a non-filing business taxpayer if the taxpayer appears to be liable for the return, the person required to
file the return does not file it, and attempts to secure the return have failed.
                                                                                                                         2
                       The Internal Revenue Service Needs a Coordinated National
                                 Strategy to Better Address an Estimated
                                   $30 Billion Tax Gap Due to Non-filers


The IRS also needs an organization-wide tracking system to monitor the progress of each
business division’s actions. The IRS does not have a formal system in place for monitoring
progress or changes to each business division’s non-filer plans (e.g., a decision to eliminate or
discontinue an action item).
In addition to better coordination and an organization-wide tracking system, the IRS also needs
measurable program goals. For example, three measurable goals that could be established are:
      •    The number of returns secured from non-filers.
      •    Total payments received.
      •    The recidivism (repeater) rate.
Without such measurable program goals, management is unable to determine whether efforts to
improve program efficiency and effectiveness are achieving desired results.
Finally, according to the National Taxpayer Advocate,7 the IRS needs to know whether its
current outreach and education activities are maximizing voluntary compliance and minimizing
the tax gap. The IRS needs to have information to support whether the outreach and education
programs are effective in bringing non-filers into compliance and reducing the recidivism rate.

Recommendations
We recommended the IRS Commissioner establish a Non-filer Program Office with a position
for a Non-filer Executive or a permanent multidivisional group with responsibilities for
developing strategy, implementing management control systems, and providing accountability
for all the IRS non-filer efforts.
The Deputy Commissioner for Services and Enforcement should ensure each business division
develops measurable program goals to determine the success of its non-filer efforts and creates a
decision support system for aggregating data concerning the effectiveness of non-filer programs
to improve the voluntary compliance levels of non-filers. Consideration should be given to the
development of an organization-wide tracking system to monitor the progress of each business
division’s non-filer strategy action items. Additionally, a schedule for future meetings for the
Non-filer Summit group needs to be established to address non-filers.
The Director, Communications, Liaison, and Disclosure (CLD), SB/SE Division, should ensure
research is conducted on the indirect effect of outreach and education activities on voluntary
compliance to determine whether education and outreach are effective tools to combat
non-filing. Finally, a study should be considered to devise an effective outreach and education
strategy.

7
    IRS National Taxpayer Advocate’s testimony to Congress on April 14, 2005.
                                                                                                    3
                  The Internal Revenue Service Needs a Coordinated National
                            Strategy to Better Address an Estimated
                              $30 Billion Tax Gap Due to Non-filers



Response
IRS management agreed with the recommendations presented. IRS management has established
a multidivisional executive group, the Collection Governance Council (CGC), whose
responsibilities include developing initiatives, implementing management control systems, and
providing accountability for all IRS non-filer efforts. The Council is meeting regularly to
provide oversight for non-filer initiatives and to discuss emerging non-filer issues. A Non-filer
subteam, which consists of representatives from each division and reports to the CGC, has been
formed to ensure planned actions are accomplished. The subteam is also meeting on a regular
basis.
For FY 2006, the IRS developed its first comprehensive non-filer work plan. The CGC will
partner with the SB/SE Division Office of Research to identify sources and types of data,
gather the data and standardize the metrics, and develop a methodology for decision making.
A cross-functional action plan has been developed that includes the responsible individuals and
status of completion. Actions are being completed, with results and activity monitored by the
Non-filer subteam and the CGC. The CGC will evaluate the effectiveness of the current
monitoring system and make changes as necessary to ensure adequate oversight and control.
The CLD function will partner with the SB/SE Division Office of Research to analyze and
summarize existing research on the effect of outreach and education activities on voluntary
compliance. Based upon study findings, the CLD function will develop appropriate outreach and
education strategies. Management’s complete response to the draft report is included as
Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Curtis Hagan,
Assistant Inspector General for Audit (Small Business and Corporate Programs), at
(202) 622-3837.




                                                                                                  4
                         The Internal Revenue Service Needs a Coordinated National
                                   Strategy to Better Address an Estimated
                                     $30 Billion Tax Gap Due to Non-filers




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service Has Taken Steps to More Efficiently Deal
          With Individual Non-filers............................................................................Page 4
          To Address the Ongoing Non-filer Problem, the Internal Revenue
          Service Has Employed a Variety of Strategies .............................................Page 6
          The Internal Revenue Service Needs Better Coordination to Ensure
          Resources Are Effectively Used to Bring Non-filers Into
          Compliance ...................................................................................................Page 6
                    Recommendations 1 through 3:.........................................Page 9

                    Recommendations 4 through 5:.........................................Page 10

          Information on Outreach and Education Efforts Is Needed to Determine
          the Effect on Recidivism...............................................................................Page 10
                    Recommendations 6 through 7: ................................................ Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Management’s Response to the Draft Report ......................Page 18
                     The Internal Revenue Service Needs a Coordinated National
                               Strategy to Better Address an Estimated
                                 $30 Billion Tax Gap Due to Non-filers




                                             Background

Section (§) 6012 of the Internal Revenue Code (I.R.C.)1 requires individuals, businesses, and
other taxable entities with income over certain threshold amounts to file income tax returns.
Most individuals and businesses comply with this requirement. However, an estimated
7.4 million individual taxpayers did not voluntarily file a tax return in Tax Year (TY) 2003.2
Individual non-filers are defined as individuals who are
legally required to file and for whom returns have not been                     The timely filing of required
filed by the due date of the return or extended due date. For                   tax returns is critical to the
businesses, non-filers are defined as entities that have a filing              United States (U.S.) system of
requirement and for which returns have not been received by                        voluntary compliance.
the due dates of the returns, or extended due dates, and are
usually 90 days past due.
The Internal Revenue Service (IRS) considers non-filing to be an egregious problem because it
can cause compliant taxpayers to lose faith in the fairness of the tax system. When taxpayers pay
their taxes, they want to be confident that their neighbors and competitors are doing the same.
One of the goals in the IRS Strategic Plan for 2005 through 2009 is to discourage and deter
noncompliance with emphasis on corrosive activity by corporations, high-income individual
taxpayers, and other contributors to the tax gap.
The IRS identifies individual non-filers by using historical filing information and third-party
data. For example, the IRS requires employers, financial institutions, and other business entities
to submit income and various other types of tax-related information to the IRS. These
third-party data are then matched with filed returns. Non-filers are identified when third-party
data for a tax year cannot be matched with a return for that tax year.
In March 2005, the IRS reported3 that individual non-filers accounted for an estimated
$30 billion4 of the total tax gap5 for Fiscal Year (FY) 2001. This report, together with previous

1
  I.R.C. § 6012 (2004).
2
  An Internal Revenue Service (IRS)-sponsored study in 1999 estimated that the IRS could identify about 57 percent
of individual non-filers but concluded that these taxpayers would provide the preponderance of collectible income
tax.
3
  This study, conducted by the IRS National Headquarters Office of Research, Analysis, and Statistics and released
in March 2005, provided numbers estimated for TY 2001. The non-filer population data were from TY 1988. The
estimate is developed from other tax gap data sources and is not derived from direct data sources. So, the growth in
the dollar amounts in the estimate track the increases in other tax gap estimates.
4
  The estimated individual non-filer tax gap of $30 billion in TY 2001 was comprised of $28 billion for individual
income tax non-filing and $2 billion associated with estate and gift taxes.
5
  The non-filer tax gap is the dollar amount of taxes not paid timely on delinquent and non-filed returns.
                                                                                                            Page 1
                     The Internal Revenue Service Needs a Coordinated National
                               Strategy to Better Address an Estimated
                                 $30 Billion Tax Gap Due to Non-filers



IRS studies, indicates the tax gap for individual non-filers tripled from $9.8 billion in TY 1985 to
over $30 billion in TY 2001.
The rate of growth accelerated from TYs 1998 to 2001 as the individual non-filer tax gap grew
from $22.6 billion to $30 billion, an increase of 33 percent over 3 years. These estimates are
based on other tax gap estimates and track along with the growth in those areas. The estimates
are not the result of direct identification of non-filer taxes owed. This is illustrated in Chart 1.
             Chart 1: Tax Gap Amounts Attributable to Individual Non-filers




                 Source: IRS Tax Gap Estimated Statistics for Tax Years 1987-2001.

             Note: These amounts do not take into account the amount owed by the
             cash or underground economy.6 According to a January 2005 study
             conducted by Bear Stearns Asset Management, Inc.,7 the U.S. may be
             foregoing $35 billion a year in income tax collections because of the
             number of jobs that are now off the books. Additionally, the study
             estimates that approximately 5 million illegal workers are collecting
             wages on a cash basis and avoiding income taxes.
We conducted our audit during the period March through May 2005 at the Small Business/
Self-Employed (SB/SE) Division Headquarters in New Carrollton, Maryland; Large and
Mid-Size Business Division Headquarters in Washington, D.C.; Wage and Investment (W&I)

6
  Schemes using such items as nominees, currency, multiple bank accounts, wire transfers, and international tax
havens to avoid detection, which ultimately erode public confidence in the tax system.
7
  Research conducted by Robert Justich and Betty Ng, Bear Stearns Asset Management Inc., New York, New York,
January 3, 2005.
                                                                                                        Page 2
                 The Internal Revenue Service Needs a Coordinated National
                           Strategy to Better Address an Estimated
                             $30 Billion Tax Gap Due to Non-filers



Division Headquarters in Atlanta, Georgia; Criminal Investigation (CI) Division in
Washington, D.C.; and Tax Exempt and Government Entities Division Headquarters in
Washington, D.C. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                        Page 3
                       The Internal Revenue Service Needs a Coordinated National
                                 Strategy to Better Address an Estimated
                                   $30 Billion Tax Gap Due to Non-filers




                                        Results of Review

The Internal Revenue Service Has Taken Steps to More Efficiently
Deal With Individual Non-filers
The IRS has estimated that 2,183 Full-Time Equivalents (FTE)8 were directed to the
identification and working of non-filer cases in FY 2004. As illustrated in Chart 2, this was a net
increase of 10 percent from 1,982 FTEs in FY 2003.
    Chart 2: Estimated FTEs Expended for Non-filer Cases by Business Division
                                                                                             Percentage
                                                                                              Change
                                                                 FTEs in       FTEs in      From 2003 to
                                Division                         FY 2003       FY 2004          2004
            CI                                                      540.00       554.00            2.59%
            Large and Mid-Size Business                              13.35        11.50          -13.86%
            SB/SE                                                 1,108.64     1,251.12           12.85%
            Tax Exempt and Government Entities                        1.00         1.00            0.00%
            W&I                                                     318.95       365.75           14.67%
               Totals                                             1,981.94     2,183.37           10.16%
           Source: IRS business divisions.

Since FY 2001, the IRS has taken steps to more efficiently deal with individual
non-filers. Actions taken by business divisions include:
    •    Consolidation of the Automated Substitute for Return Program9 into one campus.10
    •    Computer programming changes to enhance automated processing of returns created by
         the IRS for non-filing businesses, as authorized under I.R.C. § 6020(b).11



8
  An FTE is a measure of labor hours. One FTE is equal to 8 hours multiplied by the number of compensable days
in a particular fiscal year. For FY 2004, 1 FTE was equal to 2,096 staff hours.
9
  The Automated Substitute for Return Program focuses on high-income taxpayers who have not filed individual
income tax returns but appear to owe significant income tax liabilities based on available Information Reporting
Program information.
10
   The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
11
   I.R.C. § 6020(b) (2005) provides the IRS with the authority to prepare and process certain returns for a non-filing
business taxpayer if the taxpayer appears to be liable for the return, the person required to file the return does not file
it, and attempts to secure the return have failed.
                                                                                                                  Page 4
                     The Internal Revenue Service Needs a Coordinated National
                               Strategy to Better Address an Estimated
                                 $30 Billion Tax Gap Due to Non-filers



     •   Refinement of the processes for selection and modeling of non-filer cases each year
         through risk-based compliance approaches. The intention is to identify and select the
         most productive non-filer work and to apply appropriate compliance treatments to
         high-priority cases.
     •   Increased outreach efforts by the SB/SE Division through its Taxpayer Education and
         Communication (TEC) function.
     •   Increase in the number of cases recommended for prosecution by the CI Division from
         269 in FY 2001 to 317 in FY 2004 (an increase of 17.8 percent).
As illustrated in Chart 3, these actions may have resulted in fewer non-filers since 2001. This is
not certain because IRS methods for identifying this population change yearly.12 The apparent
decrease in non-filers since 2001 could be due to a change in estimating methods.
             Chart 3: National Inventory of Identified Individual Non-filers13




                 Source: IRS Case Creation for Individual Non-filer Program.




12
  The IRS could not provide a population for business non-filers.
13
  Year-to-year comparisons cannot be made because the methodology used to identify the non-filer population
changes yearly.
                                                                                                        Page 5
                     The Internal Revenue Service Needs a Coordinated National
                               Strategy to Better Address an Estimated
                                 $30 Billion Tax Gap Due to Non-filers



To Address the Ongoing Non-filer Problem, the Internal Revenue
Service Has Employed a Variety of Strategies
During the 3-year period from FYs 1993 through 1995, a multifunctional, National Non-filer
Strategy focused on using the Collection function’s open inventory. The IRS had a large
non-filer population and used higher grade Examination function staff to eliminate a backlog in
the non-filer inventory. The IRS considered this a success because of the reduction in the
non-filer inventory, elimination of unproductive cases, and increase in the number of returns
filed. However, there was no measure of the effect on voluntary compliance, and there were no
cost data for determining the return on investment.
Another national non-filer strategy was developed for FYs 2000 and 2001. However, it was
terminated because of the IRS reorganization. Subsequently, the National Non-filer Strategy for
FYs 2001 through 2003 was developed. This Strategy was updated yearly based on the overall
strategic business plan. It relied on a combined approach of outreach and compliance efforts.
While the SB/SE Division had overall responsibility for its implementation, the National
Non-filer Strategy was a coordinated, Service-wide effort to improve filing compliance.
Extensive studies by the SB/SE Division Office of Research contributed to development of the
Strategy.
Key elements of the Strategy included improved and reengineered processes and work streams,
expanded/centralized compliance/enforcement activities, and outreach and education. The effort
was to focus on the most egregious, high-risk, and highly productive segments of the population,
including Business Master File (BMF)14 trust fund, high-income individual, abusive trust/tax
schemes, and criminal non-filers.

The Internal Revenue Service Needs Better Coordination to Ensure
Resources Are Effectively Used to Bring Non-filers Into Compliance
While the IRS has taken steps to improve efficiency in dealing with individual non-filers, these
are not coordinated activities that have been planned and
controlled within the framework of a comprehensive             Individual, estate, and gift tax
strategy. Since FY 2002, each business division has             non-filers are attributed with
independently directed its own non-filer activities.            $30 billion of the tax gap for
Currently, the IRS does not have a comprehensive,                          TY 2001.
national non-filer strategy or an executive who is charged
with overseeing each business division’s non-filer efforts.



14
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
                                                                                                            Page 6
                      The Internal Revenue Service Needs a Coordinated National
                                Strategy to Better Address an Estimated
                                  $30 Billion Tax Gap Due to Non-filers



The IRS needs better coordination among its business divisions to ensure resources are being
effectively used to bring non-filers into the tax system and ensure future compliance.
In the fiscal years up to 2002, the IRS had an Executive Steering Committee (ESC) that was
broadly tasked with both developing an integrated strategy that addressed non-filers and
overseeing the activities of an Implementation Team. An executive was in charge and had
authority over all non-filer operational and analytical resources. In July 2002, the IRS
determined that its National Non-filer Strategy was obsolete. Since then, each business division
has been responsible for developing its own non-filer strategy and action items (embedding them
in annual strategy and program plans) and tracking results.
The last meeting of the ESC was held in August 2002. There is no longer a single executive in
charge. As a result, there is no longer any overall coordination of action items or monitoring,
tracking, and analysis of the efforts of all the business divisions. While increasing compliance is
a Service-wide effort, there is no regular and comprehensive Service-wide assessment of results
so resources can be strategically directed in the most effective and efficient manner.
The ESC was responsible for coordinating meetings with all business divisions to establish
information sharing. Since the last meeting of the ESC in August 2002, coordination meetings
have not been held regularly. An IMF/BMF15 Council held several meetings in 2004, but we
were unable to obtain documents indicating which business divisions participated or the topics
discussed. During the period September 2004 to April 2005, no meetings were held involving all
business divisions. In April 2005, a Non-filer Summit group meeting was held with all business
divisions to share information. At that meeting, the IRS discussed formation of a Collection
Governance Board. The Board is in the design phase because a charter on the scope and
responsibilities of the Board has not been established. A second Non-filer Summit meeting was
held in July 2005.

The IRS needs a Service-wide tracking system for monitoring progress of efforts
to bring non-filers into compliance
In addition to better coordination among its business divisions, the IRS needs an
organization-wide tracking system to monitor the progress of each business division’s non-filer
strategy action items. The IRS does not have a formal system in place for monitoring progress or
changes to each business division’s non-filer plans (e.g., a decision to eliminate or discontinue an
action item).




15
  The Individual Master File (IMF) is the IRS database that maintains transactions or records of individual tax
accounts.
                                                                                                             Page 7
                     The Internal Revenue Service Needs a Coordinated National
                               Strategy to Better Address an Estimated
                                 $30 Billion Tax Gap Due to Non-filers



For example, we previously reported in March 200216 that the IRS’ State Employment Wage
Data17 third-party matching project was underway. At that time, IRS management indicated
there would be an evaluation of the results of testing, a cost/benefit analysis, and confirmation of
test results for each activity before proceeding to the next step. Three years later, the project is
still in the testing phase and IRS management could not provide us with any cost/benefit
information for test results. Until August 2004, the SB/SE Division had been monitoring the
results of its non-filer strategy actions on the Service Wide Action Plan system. Use of this
system was suspended in 2004.

The IRS needs measurable program goals for bringing non-filers into compliance
In addition to better coordination and an organization-wide tracking system, the IRS needs
measurable program goals. For example, three measurable goals that could be established are:
     •   The number of returns secured from non-filers.
     •   Total payments received.
     •   The recidivism (repeater) rate.
Without such measurable program goals, management is unable to determine whether efforts to
improve program efficiency and effectiveness are achieving desired results.
The Government Performance and Results Act of 1993 (GPRA)18 requires that plans have
general goals and objectives, including outcome-related goals and objectives. It also requires a
description of how the goals and objectives will be achieved, skills and technology required,
human capital information, and other resources required.
According to the IRS, it did not establish a system to
                                                                            Under the GPRA, performance
measure aggregate business results for its non-filer efforts                 measurement is the ongoing
because (a) it was too difficult to determine the cost or                    monitoring and reporting of
resource allocation for specific non-filer strategy action                   program accomplishments.
items and (b) these measures could only be associated with
each function’s filing compliance program area.
In measuring business results, the IRS needs a non-filer measurement system that would provide
an aggregate measure of the effectiveness of IRS programs to improve the voluntary compliance
levels of non-filers across the business divisions.



16
   Improvements Are Needed to Enable the National Non-filer Strategy to Achieve Its Objectives (Reference
Number 2002-30-060, dated March 2002).
17
   Now known as the Employer Wage Data Match according to SB/SE Division management.
18
   Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
 39 U.S.C.).
                                                                                                              Page 8
                       The Internal Revenue Service Needs a Coordinated National
                                 Strategy to Better Address an Estimated
                                   $30 Billion Tax Gap Due to Non-filers



This would be consistent with Office of Management and Budget Circular A-12319 requirements
for effective internal controls to ensure programs operate, and resources are used, efficiently and
effectively to achieve desired objectives.
In summary, with better coordination among its business divisions, an organization-wide
tracking system, and measurable program goals, the IRS would be better positioned to
strategically address an estimated $30 billion tax gap attributable to individual, estate, and gift
tax non-filers.

Recommendations
Recommendation 1: To ensure adequate accountability and oversight, the IRS
Commissioner should establish a Non-filer Program Office with a position for a Non-filer
Executive or a permanent multidivisional group with responsibilities for developing strategy,
implementing management control systems, and providing accountability for all the IRS
non-filer efforts.
           Management’s Response: During July 2005, the IRS convened a Non-filer Summit
           to elevate and discuss non-filer issues. At this Summit, it established a multidivisional
           executive group, the Collection Governance Council (CGC), whose responsibilities
           include developing initiatives, implementing management control systems, and providing
           accountability for all IRS non-filer efforts. The Council is meeting regularly to provide
           oversight for non-filer initiatives and to discuss emerging non-filer issues.
Recommendation 2: To determine the results achieved for each function involved in
increasing filing compliance, the Deputy Commissioner for Services and Enforcement should
ensure each business division develops measurable program goals for determining the success of
its non-filer program activities.
           Management’s Response: For FY 2006, the IRS has developed its first
           comprehensive non-filer work plan. Since each compliance function will be accountable
           for achieving the plan, the non-filer initiatives are incorporated in each division’s
           program plan. Each compliance function will monitor results on a regular basis, and the
           CGC will ensure coordination among divisions.
Recommendation 3: To obtain reliable data for measuring filing compliance, the Deputy
Commissioner for Services and Enforcement should ensure a decision support system is created
for aggregating data on the effectiveness of non-filer programs in improving voluntary
compliance.




19
     Circular A-123, Management’s Responsibility for Internal Control (revised December 2004).
                                                                                                 Page 9
                    The Internal Revenue Service Needs a Coordinated National
                              Strategy to Better Address an Estimated
                                $30 Billion Tax Gap Due to Non-filers



        Management’s Response: The CGC will partner with the SB/SE Division Office of
        Research to identify sources and types of data, gather the data and standardize the
        metrics, and develop a methodology for decision making.
Recommendation 4: For continuity and program emphasis, the Deputy Commissioner for
Services and Enforcement should ensure the Non-filer Summit group continues to meet by
establishing a schedule of future meetings for coordination and information sharing among the
business divisions.
        Management’s Response: The CGC is meeting regularly to provide oversight for
        non-filer initiatives and to discuss emerging non-filer issues. A Non-filer subteam, which
        consists of representatives from each division and reports to the CGC, has been formed to
        ensure planned actions are accomplished. The subteam is also meeting on a regular basis.
Recommendation 5: To ensure effective coordination, monitoring, and successful
completion of each business division’s non-filer strategy objectives, the Deputy Commissioner
for Services and Enforcement should consider the development of an organization-wide tracking
system. Detailed information for each business division should include actions taken, status,
results, and contact information for the individual responsible for each action.
        Management’s Response: A cross-functional action plan has been developed that
        includes responsible individuals and status of completion. Actions are being completed,
        with results and activity monitored by the Non-filer subteam and the CGC. The CGC
        will evaluate the effectiveness of the current monitoring system and make changes as
        necessary to ensure adequate oversight and control.

Information on Outreach and Education Efforts Is Needed to
Determine the Effect on Recidivism
The IRS needs to have information to support whether the outreach and education programs are
effective in bringing non-filers into compliance and reducing the recidivism rate. The SB/SE
Division has increased outreach efforts through its TEC
function. A similar function, Stakeholder Partnerships,
Education, and Communication (SPEC), is part of the              The IRS needs to know
                                                              whether its current outreach
W&I Division. In January 2005, the SB/SE and W&I               and education activities are
Divisions reorganized as a result of a 2004 study20 that          maximizing voluntary
assessed whether the IRS could accomplish its prefiling        compliance and minimizing
and outreach objectives more effectively. The study                    the tax gap.
clearly validated that the TEC and SPEC functions are
vital to the accomplishment of the IRS’ mission by

20
  The study was conducted in the fall of 2004 by the Office of Program Evaluation and Risk Analysis. The SB/SE
Division is in the process of implementing the results of the study.
                                                                                                      Page 10
                    The Internal Revenue Service Needs a Coordinated National
                              Strategy to Better Address an Estimated
                                $30 Billion Tax Gap Due to Non-filers



delivering quality assistance to the American public through a variety of services. A decision
was made to realign the SB/SE Division TEC function with the Communications and Liaison
function, creating a Communications, Liaison, and Disclosure (CLD) function. Also, the
Communications function in the W&I Division merged with the SPEC function, retaining the
SPEC function title.
The CLD and SPEC functions are aimed at proactively addressing the needs of taxpayers and
their representatives to improve overall compliance early in the process and to support a
risk-based compliance strategy. These functions also have taxpayer education programs that
reach out to customers based on specific, documented needs. A wide variety of published
products, including electronic and interactive media, will be produced to better respond to
customer needs and to keep pace with services available through the private sector. The goals
for these activities are to reduce taxpayer burden and increase tax compliance by making it easier
for taxpayers to understand and comply with their tax responsibilities.
According to the National Taxpayer Advocate,21 the IRS needs to know whether its current
outreach and education activities are maximizing voluntary compliance and minimizing the tax
gap. These activities may not be adequate to achieve the objectives and goals and develop data
for decision support. Although research has been conducted on a select group of non-filers22 to
determine the recidivism rate, the IRS needs to consistently calculate a recidivism rate for all
non-filers. Also, the IRS cannot determine whether outreach efforts have been effective in
reaching repeat non-filers treated by the Automated Substitute for Return Program. The IRS
expends resources preparing returns for these individuals, only to have many stop filing 1 or
more years later. When these taxpayers are identified as non-filers again, the IRS must spend
additional resources and restart the enforcement cycle.
According to the GPRA, performance measurement is the ongoing monitoring and reporting of
program accomplishments. However, in some programs, outcomes are not quickly achieved. In
such cases, program evaluations may be needed to examine the extent to which a program is
achieving its objectives. The GPRA requires program activities that have objectives, goals, and
data for decision support. The IRS has not conducted a study on the effect of outreach and
educational activities on non-filers. The IRS is missing opportunities to educate those taxpayers
who are not complying with their filing requirements and to deter future noncompliance.




21
  IRS National Taxpayer Advocate’s testimony to Congress on April 14, 2005.
22
  Report on International Non-filers in Puerto Rico and U.S. Virgin Islands (Form 1040PR and Form 1040SS),
SB/SE Division Research function, dated October 2003.
                                                                                                     Page 11
                  The Internal Revenue Service Needs a Coordinated National
                            Strategy to Better Address an Estimated
                              $30 Billion Tax Gap Due to Non-filers



Recommendations
Recommendation 6: To ensure the IRS’ outreach and education programs are effective in
bringing non-filers into the system and combating recidivism, the Director, CLD, SB/SE
Division, should ensure research is conducted on the indirect effect of outreach and education
activities on voluntary compliance and use this research to determine which outreach and
education activities to pursue.
       Management’s Response: The CLD function will partner with the SB/SE Division
       Office of Research to analyze and summarize existing research on the effect of outreach
       and education activities on voluntary compliance. The CLD function will use the
       findings to determine the next steps, if applicable.
Recommendation 7: To ensure the IRS is not missing opportunities to educate those
taxpayers who are not complying with their filing requirements and to deter future
noncompliance, the Director, CLD, SB/SE Division, should consider a study to devise an
effective outreach and education strategy. This strategy must (a) be based on research,
(b) explain the causes of noncompliance, (c) target the appropriate taxpayer segments for each
particular cause of noncompliance, and (d) reduce opportunities for noncompliance.
       Management’s Response: Based upon study findings, the CLD function will
       develop appropriate outreach and education strategies.




                                                                                         Page 12
                     The Internal Revenue Service Needs a Coordinated National
                               Strategy to Better Address an Estimated
                                 $30 Billion Tax Gap Due to Non-filers



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) effectively implemented the initiatives of its Non-filer Strategy. Specifically, we reviewed
the IRS’ current proposed actions for Fiscal Years (FY) 2004 – 2005 and followed up on the
proposed actions for the FYs 2001 – 2003 National Non-filer Strategy that were to be
implemented in response to the recommendations made in a prior Treasury Inspector General for
Tax Administration report.1 Specifically, we:
I.      Determined the effectiveness of IRS programs for identifying non-filers, securing the
        returns, receiving payments, and reducing the recidivism (repeater) rate.
        A. Obtained FYs 2004 – 2005 Strategy and Program Plans for the following IRS
           business divisions: Small Business/Self-Employed (SB/SE), Wage and Investment
           (W&I), Large and Mid-Size Business (LMSB), Tax Exempt and Government Entities
           (TE/GE), and Criminal Investigation (CI).
        B. Interviewed IRS analysts and management for each business division to obtain the
           status of the action items pertaining to non-filers. For items completed, we discussed
           the results of the action items.
        C. Discussed with IRS analysts and management their plans, based on available budget
           levels, and how decisions are made to allocate resources to the highest risk aspects of
           the non-filer program.
            1. Computed the total resources the IRS allocated to working all aspects of the
               Non-filer Strategy.
            2. Obtained information on how the IRS determined risk-based priorities for
               non-filers and how the budget is allocated to these high-risk areas.
            3. Obtained information on program accomplishments for each fiscal year since
               FY 2001 and statistical information tracked for FYs 2003 and 2004.
        D. Interviewed IRS analysts and management to determine whether the IRS had
           quantified the cost to the Department of the Treasury of not pursuing known
           non-filers because of budget constraints.



1
 Improvements Are Needed to Enable the National Non-filer Strategy to Achieve Its Objectives (Reference
Number 2002-30-060, dated March 2002).
                                                                                                          Page 13
                     The Internal Revenue Service Needs a Coordinated National
                               Strategy to Better Address an Estimated
                                 $30 Billion Tax Gap Due to Non-filers



        E. Interviewed IRS analysts and management from the SB/SE, W&I, and LMSB
           Divisions to obtain information on the programs used to identify potential non-filers.
           For these programs, we obtained information on how the IRS measures success.
        F. Interviewed IRS analysts and management from each business division to determine
           whether the actions taken by the IRS since FY 2001 have resulted in any substantial
           reductions in the numbers of individual and business non-filers.
        G. Interviewed and obtained information from IRS analysts in the Taxpayer Education
           and Communication function; Stakeholder Partnerships, Education, and
           Communication function; and CI Division to determine whether the IRS effectively
           communicated with taxpayers to reduce the non-filer population.
             1. Obtained information on outreach efforts conducted to encourage taxpayer
                compliance.
             2. Ascertained how the IRS measures the effectiveness of outreach efforts.
             3. Determined whether the IRS computed the non-filer recidivism rate and what
                actions were taken to reduce it.
II.     Determined whether the proposed actions for the FYs 2001–2003 National Non-filer
        Strategy were implemented in accordance with IRS responses to our previous
        recommendations.2
        A. Interviewed SB/SE Division analysts and management, obtained the status of the state
           matching of employment data project, and obtained plans for implementation.
        B. Obtained information from IRS analysts and management from the SB/SE, W&I,
           LMSB, TE/GE, and CI Divisions on the action items completed from the
           FYs 2001–2003 National Non-filer Strategy and the effectiveness of these actions.
        C. Requested documentation of meetings held by the Executive Steering Committee to
           oversee and monitor the Implementation Team’s activities since its first scheduled
           meeting in January 2002.
        D. Requested documentation for measuring the overall success of the Non-filer Strategy
           that was to be developed by the Implementation Team to measure the return on
           investment for the Non-filer Strategy activities.




2
 Improvements are Needed to Enable the National Non-filer Strategy to Achieve its Objectives (Reference
Number 2002-30-60, dated March 2002.)
                                                                                                          Page 14
                 The Internal Revenue Service Needs a Coordinated National
                           Strategy to Better Address an Estimated
                             $30 Billion Tax Gap Due to Non-filers



                                                                              Appendix II

                 Major Contributors to This Report

Curtis Hagan, Assistant Inspector General for Audit (Small Business and Corporate Programs)
Preston Benoit, Acting Director
Philip Shropshire, Director
Timothy Greiner, Acting Audit Manager
Michael Howard, Acting Audit Manager
Donna Saranchak, Lead Auditor
Carole Connolly, Senior Auditor
Debra Mason, Auditor




                                                                                      Page 15
                 The Internal Revenue Service Needs a Coordinated National
                           Strategy to Better Address an Estimated
                             $30 Billion Tax Gap Due to Non-filers



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Communications and Liaison CL
Chief, Criminal Investigation SE:CI
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications and Liaison, Large and Mid-Size Business Division SE:LM:CL
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Pre-Filing and Technical Guidance, Large and Mid-Size Business Division
SE:LM:PFTG
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Campus Filing and Payment Compliance, Small Business/Self-Employed Division
SE:S:CCS:CFPC
Director, Campus Reporting Compliance, Small Business/Self-Employed Division
SE:S:CCS:CRC
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM

                                                                                    Page 16
         The Internal Revenue Service Needs a Coordinated National
                   Strategy to Better Address an Estimated
                     $30 Billion Tax Gap Due to Non-filers



Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Communications and Liaison CL
Chief, Criminal Investigation SE:CI




                                                                 Page 17
     The Internal Revenue Service Needs a Coordinated National
               Strategy to Better Address an Estimated
                 $30 Billion Tax Gap Due to Non-filers



                                                    Appendix IV


Management’s Response to the Draft Report




                                                          Page 18
The Internal Revenue Service Needs a Coordinated National
          Strategy to Better Address an Estimated
            $30 Billion Tax Gap Due to Non-filers




                                                     Page 19
The Internal Revenue Service Needs a Coordinated National
          Strategy to Better Address an Estimated
            $30 Billion Tax Gap Due to Non-filers




                                                     Page 20
The Internal Revenue Service Needs a Coordinated National
          Strategy to Better Address an Estimated
            $30 Billion Tax Gap Due to Non-filers




                                                     Page 21
The Internal Revenue Service Needs a Coordinated National
          Strategy to Better Address an Estimated
            $30 Billion Tax Gap Due to Non-filers




                                                     Page 22
The Internal Revenue Service Needs a Coordinated National
          Strategy to Better Address an Estimated
            $30 Billion Tax Gap Due to Non-filers




                                                     Page 23
